       Office of Inspector General
       Audit Report




   Final Audit Report of Grant Numbers
EQ-993391-01 and EQ-824225-01 Awarded to
Center for Environment, Commerce & Energy



           E3CEN8-03-0011-9300006

              February 17, 1999
Inspector General Division
Conducting the Audit:        Mid-Atlantic Audit Division
                             Philadelphia, PA

Regions Covered:             Region 3
                             Headquarters

Program Offices Involved:    Chesapeake Bay Program Office
                             Philadelphia, PA

                             Office of Assistant Regional
                              Administrator for Policy
                              and Management
                             Philadelphia, PA

                             Office of Environmental Justice
                             Washington, D.C.

                             Office of Grants and Debarment
                             Washington, D.C.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460




                                                                                OFFICE OF
                                                                           THE INSPECTOR GENERAL




                               February 17, 1999

MEMORANDUM

SUBJECT:      Final Report of EPA Grants to Center for Environment, Commerce & Energy
              Grant Numbers EQ-993391-01 and EQ-824225-01
              Report Number E3CEN8-03-0011-9300006


FROM:         Elissa R. Karpf
              Deputy Assistant Inspector General
               for External Audits (2421)

TO:           W. Michael McCabe, Regional Administrator
              Region 3 (3RA00)

              Steven A. Herman, Assistant Administrator
                for Enforcement and Compliance Assurance (2201A)

              Gary M. Katz, Director
              Grants Administration Division (3903R)

Attached is our final audit report on Environmental Protection Agency (EPA) grants
EQ-993391-01 and EQ-824225-01 awarded to the Center for Environment, Commerce, &
Energy (the Center). Region 3's Chesapeake Bay Program Office (CBPO) requested we perform
an audit of these two EPA grants, which had identical requirements and work plans. EPA
Headquarters Office of Environmental Justice (OEJ) awarded one grant and Region 3's CBPO
awarded the other. The purpose of our audit was to determine why EPA awarded two identical
grants to the same grantee and whether EPA mismanaged the grant funds.

This report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. This report represents the opinion of the
OIG. Final determinations on matters in this report will be made by EPA managers in
accordance with established EPA audit resolution procedures. Accordingly, the findings
contained in this report do not represent the final EPA position.
RESULTS-IN-BRIEF

EPA awarded the same grantee two grants with identical work plans and expected two different
work products. About one month after the award of the second grant, the President of the Center
notified the two EPA program offices of the duplicate work plans and suggested two separate
reports be produced. Neither CBPO nor OEJ staff responded to the Center’s proposed solution
or took action to differentiate between the work plans. This lack of clear direction coupled with
ineffective monitoring by EPA project officers resulted in neither program office receiving the
work product it expected.

The results of our financial audit are shown below.

                                           Federal Share
                                  Costs                   Costs Questioned
Agreement                Incurred      Accepted     Ineligible     Unsupported

EQ-993391-01             $140,000 t           $767          $54,688            $ 84,545

EQ-824225-01               30,000 t               0                 0                30,000

Total
EPA Share                $170,000             $767          $54,688            $114,545
               t
                   EPA award officials rounded this number on the award agreement.



RECOMMENDATIONS

EPA should more effectively award grants and monitor grantee performance. Also, EPA should
adjust the allowable costs in accordance with our determination. In particular, the Center should
repay EPA $169,219.

AGENCY COMMENTS AND OIG EVALUATION

The Agency and the Center generally agreed with our findings and recommendations. However,
we did revise Recommendations 1 and 4 to address Agency concerns. In addition, officials from
the Grants Administration Division (GAD) believe that the error of duplicate work plans was an
isolated incident. Therefore, they did not agree with Recommendation 5 which is to require the
grantee to certify that it has no other EPA-funded awards that include the same scope of work.
GAD’s response did not provide sufficient proof that this was an isolated incident. As a result,
Recommendation 5 remains unchanged.

After evaluating all of the responses, we made modifications as appropriate to our report and the
recommendations. However, our position remains unchanged on the report findings. We
summarized the comments received from EPA and the Center after the finding. Neither EPA nor
the Center responded specifically to the Notes in Exhibits A and B. The Center offered one
general comment regarding allowable costs which we addressed after the finding.

ACTION REQUIRED

This report contains recommendations to the Regional Administrator, Region 3; the Assistant
Administrator for Office of Enforcement and Compliance Assurance (OECA); and the Director,
Grants Administration Division. We designated the Regional Administrator, Region 3, as the
primary action official because we address the majority of recommendations to him. As the
primary action official, the Regional Administrator, Region 3, should take the lead in coordinating
the Agency’s response.

In accordance with EPA Order 2750, the Regional Administrator, Region 3, is required to
provide a final determination on the costs questioned and the other recommendations within 90
days of the audit report date. Your response should address all recommendations, and include
milestone dates for corrective actions planned, but not completed. This will assist us in deciding
whether to close this report. Should the action official consider a position on the questioned costs
that differs from our recommendations, we would appreciate the opportunity to discuss
management’s position before the determination is issued to the Center. Please provide a copy of
the final determination to our office when issued.

We have no objection to the further release of this report to the public. If you or your staff have
any questions regarding this report, please contact Carl A. Jannetti, Divisional Inspector General
for Audit, Mid-Atlantic Division at (215) 814-5800 or Patrick J. Milligan at (215) 814-2326.

Attachment
[This page was intentionally left blank.]
                                                  TABLE OF CONTENTS


PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

EPA AWARDS GRANTEE TWO GRANTS WITH IDENTICAL REQUIREMENTS . . . . . . . 4

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

EXHIBIT A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
     ANALYSIS OF ALLOWABILITY OF EXPENDITURES
     UNDER EPA AGREEMENT EQ-993391-01

EXHIBIT B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
     ANALYSIS OF ALLOWABILITY OF EXPENDITURES
     UNDER EPA AGREEMENT EQ-824225-01

APPENDIX 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   16
     RESPONSES TO DRAFT REPORT
           Region 3 Administrator . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  17
           Region 3 Chesapeake Bay Program Office . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              26
           Region 3 Grants and Audit Management Branch . . . . . . . . . . . . . . . . . . . . . . . .                                 32
           Office of Environmental Justice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     35
           Grants Administration Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    39
           Center for Environment, Commerce & Energy . . . . . . . . . . . . . . . . . . . . . . . . .                                 41

APPENDIX 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
     DISTRIBUTION
PURPOSE

Region 3's Chesapeake Bay Program Office (CBPO) requested we perform an audit of two EPA
grants awarded to the Center for Environment, Commerce, & Energy (the Center). These grants
had identical requirements and work plans. The purpose of our audit was to determine:

       —       why EPA awarded two identical grants to the same grantee,

       —       whether EPA mismanaged grant funds, and

       —       whether the costs claimed under these two grants were allowable, allocable, and
               reasonable.

BACKGROUND

In June 1994, the Center issued a report which quantified discharges of pollution into the air,
water, and land of the District of Columbia (the District). The National Wildlife Federation and
the National Association of Neighborhoods funded this work. According to EPA personnel from
the Office of Environmental Justice (OEJ) and Region 3, the Center’s report was well received by
the environmental community.

The Director, OEJ told the President of the Center that this work would be useful to the
environmental justice community. However, the Center would need to expand on its report to
include statistics on race, income, and how these statistics correlated with the levels of pollution
in the District. As a result, EPA Headquarters, Grants Administration Division (GAD) awarded
an OEJ grant for $15,000 to the Center on April 10, 1995. The GAD approved an amendment to
the OEJ grant for an additional $15,000 on May 10, 1996. OEJ was the program office
responsible for monitoring the Center’s performance during the two-year project period that
concluded on April 23, 1997.

On August 29, 1995, approximately five months after the award of the OEJ grant, Region 3's
CBPO awarded the Center a $140,000 grant. The funding for this grant originated in EPA
Headquarters Office of Enforcement and Compliance Assurance which then transferred the funds
to Region 3's CBPO. The CBPO project officer said the Center was to focus its efforts on
informing the District’s communities about the types and amounts of pollution in their
neighborhoods. Also, she expected the Center to give the communities a greater understanding of
the functions of government; the structure of environmental laws; roles and responsibilities of
various government and private agencies; and opportunities for public involvement in decision-
making.




                                                 1
                                                                  Report No. E3CEN8-03-0011-9300006
SCOPE AND METHODOLOGY

We conducted a financial audit of EPA grants EQ-993391-01 and EQ-824225-01 and an internal
audit of EPA’s award and oversight of these grants. Our fieldwork began on April 2, 1998, and
ended on July 24, 1998. We conducted audit work at the Center, EPA Headquarters, and
Region 3. The scope of our work was limited to activities conducted by the Center under the
applicable grants. The audit represents a final audit of costs claimed for grants EQ-993391-01
and EQ-824225-01.

To accomplish our audit, we reviewed EPA’s policies and procedures for administering grants.
We also interviewed responsible program officials at Region 3 and OEJ, and the President of the
Center. We reviewed the Code of Federal Regulations (CFR), Part 30, Office of Management
and Budget (OMB) Circular A-122, and the requirements specified in the grant agreements
between EPA and the Center.

Our audit was performed in accordance with the Government Auditing Standards (1994
Revision) issued by the Comptroller General of the United States. However, we did not follow all
of the elements of the planning standards in Chapter 6. Because a request from the CBPO
initiated this audit, our work focused on confirming the issues raised in the request. The audit
included tests of program records, accounting records, and other auditing procedures we
considered necessary.

We did not conduct an extensive review of the Center’s internal control systems. However, we
did examine internal controls as they related to costs incurred under the grants to assure
compliance with Federal statutory and regulatory criteria and with the Center’s policies and
procedures. Because of the inherent limitations in any system of internal accounting control,
errors or irregularities may occur and not be detected. Except for the issues discussed in this
report, nothing came to our attention that would cause us to believe the Center’s procedures were
not adequate for our purposes.

The Agency in its “1998 Integrity Act Report To The President and Congress,”declared grants
management as a material weakness. We reviewed the CBPO’s annual assurance letter for fiscal
year 1998 prepared as a result of the Federal Managers’ Financial Integrity Act. There were no
weaknesses identified that pertained to the scope of work we reviewed. However, the letter
indicated that the CBPO requested this audit and that they would use the findings to strengthen
their management controls.

We reviewed records maintained by the Agency and the Center. These records included the grant
agreements, progress reports, and project officers’ files. To determine the reasonableness,
allowability, and allocability of the costs claimed under the grants, we judgementally selected a
sample of costs claimed. For each cost claimed, we reviewed the source documentation including
invoices, canceled checks, travel reports, and time sheets. We also reviewed the


                                                2
                                                                Report No. E3CEN8-03-0011-9300006
Center’s compliance with the program and financial reporting requirements of the grants and
interviewed the Center’s President to determine if the Center appropriately followed policies and
procedures.

We issued the draft report on August 28, 1998. Region 3 submitted a consolidated response on
November 12, 1998, which included comments from the Office of Enforcement and Compliance
Assurance (OECA), GAD, Region 3, and the Center. We included all of the responses as
Appendix 1 to this report. Because the Center’s response was voluminous, we did not include the
attachments, which are on file in our office and are available upon request. On December 11,
1998, we conducted an exit conference with the Center. We conducted exit conferences with
OECA and the CBPO on December 15, 1998.




                                                3
                                                                 Report No. E3CEN8-03-0011-9300006
   EPA AWARDS GRANTEE TWO GRANTS WITH IDENTICAL REQUIREMENTS

EPA mismanaged grant funds when it awarded the same grantee two grants with identical
requirements and work plans, despite expecting two different work products. This occurred in
part, because the work plan was too general and included tasks related to both work products.
EPA’s Assistance Administration Manual (Manual), Chapter 12 requires a comprehensive review
of the grantee’s proposed work plan. This review should take into consideration: whether the
grantee’s proposal duplicates other efforts funded by EPA; and whether the project outputs are
clearly defined. In addition, EPA’s oversight of the grantee’s performance was lacking in the
areas of obtaining the required annual progress report and conducting on-site visits. Chapter 44
of the Manual requires that EPA project officers sufficiently manage grants and monitor grantee
performance. Consequently, the Agency program offices that funded the grants did not receive
final reports that met their requirements.

Duplicate Work Plans for Two Different Grants

Headquarters GAD awarded the first OEJ grant to the Center on April 10, 1995, for $30,000 with
a two-year project period. Region 3's CBPO awarded the second grant to the Center on August
29, 1995, with a one year project period. This grant was for $140,000. Although OEJ and
CBPO expected different work products, they awarded two grants with the same work plan. The
President of the Center told us that at the time he submitted the second grant application, he
believed this additional grant money was to supplement the work agreed to under the OEJ grant.
As a result, the Center used the same work plan to obtain the CBPO grant that it had submitted to
OEJ for the first grant.

CBPO personnel said they did not know the Center had received an identical grant from OEJ five
months earlier. However, the President of the Center notified OEJ and CBPO of the duplicate
work plans about one month after the second grant was awarded. In an October 1995 letter, the
President of the Center informed EPA about the duplication and suggested that he produce two
separate reports, one for each program office. Neither CBPO nor OEJ staff responded to the
Center’s proposed solution or took action to differentiate between the work plans.

Region 3 officials told us they review and compare grants awarded within the Region to ensure
that one grantee does not receive money twice for the same work. However, no such control
exists between the regions and EPA Headquarters, thereby allowing for the possibility of a
grantee receiving two awards for the same work. This lack of control was a primary reason the
Center received two identical awards.

Inadequate Work Plan

The work plan used for both grants more closely reflected OEJ’s desired results because the
proposed work plan was based on discussions held between the Center and OEJ officials.


                                                4
                                                                Report No. E3CEN8-03-0011-9300006
 Moreover, the final product was more suited to what OEJ expected, a report on how pollution
impacted the different communities in the District of Columbia. Additionally, the interim
deliverable in the work plan of collecting and analyzing data also related to producing the report.

Although the work plan more closely suited OEJ’s needs, it was not adequate even for their
purposes. OEJ personnel told us they expected a report that identified the most polluted areas of
the District and how these areas correlated to the race and income of its residents. OEJ’s
expectation was supported in the introduction section of the grant work plan which stated, “A
central feature of the project was to be an assessment of the disproportionate impact of pollution
on the poor and people of color.” However, the grant’s scope of work emphasized identifying
types and amounts of pollution by categories of facilities. The scope of work hardly mentioned
the issue of race and income.

The work plan clearly did not satisfy CBPO’s intended results. The CBPO project officer said the
Center was to focus its efforts on informing the District’s communities about the types and
amounts of pollution in their neighborhoods. She also expected the Center to educate the
communities about environmental laws, the responsibilities of various government and private
agencies, and the opportunities for public involvement in environmental decision-making. The
only deliverables in the work plan described data collection and producing a report. These
deliverables did not coincide with the public outreach that the CBPO wanted the grantee to
perform. More suitable grant requirements could have included items such as a detailed
description of the information the grantee needed to relay to the communities and a schedule of
dates and places where the grantee planned to perform this public outreach.

Prior to awarding the grant, the CBPO should have structured the grant requirements to reflect
outreach activities. Furthermore, when the Center notified EPA of the duplicate work plan, the
CBPO had another opportunity to amend the grant requirements and scope of work. The work
plan was not adequate for either grant and contributed to both offices receiving, from the Center,
a product that did not satisfy their requirements.

EPA Did Not Effectively Monitor the Grants

Both CBPO and OEJ could have received the desired results if they had adequately monitored the
Center’s performance. Chapter 44 of EPA’s Assistance Administration Manual requires that EPA
project officers (POs) sufficiently manage grants and monitor grantee performance. We found the
OEJ PO did not conduct on-site visits or follow-up with the Center when the required annual
status reports were not received. As required in 40 CFR Part 30.51(b), the grantee must submit
at least one progress report for each year of the project period. During the two year project, the
Center submitted no progress reports to OEJ. OEJ personnel said that the President of the Center
would occasionally make informal visits to their office and provide verbal updates of its work.
This was the extent of OEJ’s oversight during the entire project period. OEJ personnel said that
because Region 3's CBPO awarded the predominance of the EPA grant funds


                                                 5
                                                                  Report No. E3CEN8-03-0011-9300006
 to the Center, the CBPO should have monitored the grantee’s performance. However, this
reasoning does not appear workable since OEJ and CBPO expected two different final products.
In addition, each PO had a responsibility to manage their grant and monitor the grantee’s
performance to ensure funded activities were accomplished and final products were received.

The CBPO PO told us that early in the project period, she realized the grantee was not
performing adequately. For example, in the quarterly progress reports, the Center included
information on race and income in an attempt to satisfy OEJ. However, the CBPO PO instructed
the Center to remove it because the information did not relate to public outreach. The CBPO PO
claimed she could take no action against the Center because of the way EPA structured the grant
requirements. Excluding the quarterly status reports, the only interim deliverable was at the
conclusion of the data collection phase, which was nine months into the project. As a result, the
PO contended that she could take no formal action against the grantee until the tenth month of the
twelve-month project period. At that time, the PO attempted to withhold some of the grant funds
because the grantee was not focusing its efforts on public outreach. CBPO officials determined
that although the Center was performing almost no outreach, it was performing work within the
broad scope of the work plan. As a result, the PO said that she believed there was no basis to
withhold funds.

Status of Grantee’s Work

In December 1997, ten months after the report was due, the grantee issued a report on types and
amounts of pollution in the District. The CBPO PO said that this report did not provide what the
CBPO expected, which was public outreach to the District’s communities. According to the OEJ
PO, the report satisfied OEJ’s expectations, however, the former Director, OEJ did not agree.
The former Director, who initiated the idea of awarding grant money to the Center, told us that
the report was inadequate because it did not include the race and income components that
represented the basis of the award. When we discussed this with the President of the Center, he
said the CBPO would not allow that information in the report. As of April 1998, the Center was
drafting another report that included the race and income components that would satisfy OEJ’s
expectations.

During our audit fieldwork, the OEJ PO stated she did not intend to monitor the completion of
this draft report because she was satisfied with the initial report the Center submitted to the
CBPO. The OEJ PO obtained the cover page from the CBPO report and considered this as
evidence of the final OEJ report. In fact, the OEJ PO certified to GAD that she had received and
accepted the final report from the Center. This certification prompted GAD to closeout the grant.

OEJ personnel provided conflicting information regarding the final OEJ report. In response to the
draft report, the OEJ PO acknowledged that the report prepared for the CBPO was not an
adequate final product. Therefore, the OEJ PO should not have certified that she received an
adequate final product and the grant should not have been closed out by GAD. The OEJ PO said


                                                6
                                                                Report No. E3CEN8-03-0011-9300006
she did not expect a final report because the Center had spent all of the grant funds. It is unclear
whether the Center intends to perform any more work related to the raw data that was submitted
to OEJ. The OEJ PO needs to monitor any additional work performed by the Center.

RECOMMENDATIONS

We recommend the Regional Administrator, Region 3, and the Assistant Administrator for the
Office of Enforcement and Compliance Assurance:

       1)      Require POs to manage grants properly in accordance with EPA’s Assistance
               Administration Manual. Specifically, for awards over a certain dollar threshold,
               the program offices should develop an assistance management plan. The plan
               should identify planned PO oversight activity, estimated PO monitoring time and
               other funds (e.g., travel) required. These oversight efforts should be coordinated
               with Grants Management Office’s monitoring efforts.

       2)      Hold the PO’s and approval officials accountable for grant work plan specificity,
               administering the grant effectively, and monitoring the grantee’s performance.

We recommend the Assistant Administrator for the Office of Enforcement and Compliance
Assurance:

       3)      Instruct the OEJ PO to monitor any additional work performed by the Center
               under the grant.

We recommend the Regional Administrator, Region 3, and the Director, Headquarters Grants
Administration Division:

       4)      Before awarding additional funds to the Center, require the Center to provide a
               description of the changes made to its accounting, procurement, and timekeeping
               systems to ensure the Center meets the requirements of OMB Circular A-122.
               (See Exhibits A and B)

       5)      Include language in grant applications and agreements whereby the grantee
               certifies that it has no other EPA-funded awards that include the same scope of
               work.

       6)      Adjust the allowable costs in accordance with our determination and require the
               Center to repay EPA $169,219. (See Exhibits A and B)




                                                  7
                                                                  Report No. E3CEN8-03-0011-9300006
REGION 3 RESPONSE

Region 3 stated that it is the ultimate obligation of the grantee to correct duplicate plans before
the grantee accepts a grant or expends funds. This is where the audit should place clear and final
responsibility.

Regional officials requested that we not use the term “misuse” of EPA funds because all of the
funds were used for eligible work under the grant work plan. Region 3 officials also stated while
one might argue that this was less than a fully effective use of the funds, it was not technically a
misuse or misapplication of funds.

Region 3 disagreed with Recommendation Number 1, which is to develop an assistance
management plan for each grant because it is well beyond the resources available for grants
management given that individuals may manage numerous grants in addition to other work
requirements.

In our draft report, we recommended that EPA obtain written assurance that the Center has an
adequate financial accounting system before awarding additional funds to the Center. The Region
responded that the applicant already attests to its ability to meet the financial accounting
requirements in a written certification.

Region 3, Grants Management Branch did not agree with the recommendation to require the
grantee to certify it has no other EPA-funded awards that include the same scope of work. They
cited lack of communication between EPA offices as the reason for duplicate awards.
Conversely, the Region 3 CBPO cited it as the most important recommendation in the report. In
response to the final report, Region 3 needs to take one position regarding this recommendation.

OIG EVALUATION

The Center fulfilled its obligation by reporting the problem of duplicate work plans to EPA. When
the Center made EPA aware of the problem, EPA did not correct the situation although it was
EPA’s responsibility not only to eliminate the duplicate work plans but clearly to communicate to
the Center what needed to be accomplished under each grant and what was to be included in the
final work product. The work plan should be a negotiated document containing well-defined
commitments that foster accountability on behalf of the grantee.

We agree with Region 3's reasoning regarding the term “misuse” of funds and have changed the
term to “mismanagement” of funds.

Regarding Recommendation Number 1, we believe an assistance management plan is a
fundamental management tool that EPA should use whenever possible. If resources do not allow
Region 3 to develop a plan for each award, the Region should at a minimum, develop plans for


                                                  8
                                                                  Report No. E3CEN8-03-0011-9300006
groups of awards or for awards over a certain dollar threshold. In the long run this will provide
the POs a tool to efficiently and effectively manage the numerous grants they are responsible for.

Concerning Recommendation Number 4, we agree with Region 3's response that the applicant
already attests to its ability to meet the financial accounting requirements in a written certification.
We revised the recommendation to state that because of the Center’s inadequate financial
accounting system, EPA needs to require the Center to provide a description of the changes made
to its accounting, procurement, and timekeeping systems to ensure the Center complies with
OMB Circular A-122 before awarding additional funds to the Center.

In regards to the Region attributing the duplicate awards to a lack of communication between
EPA offices, it was more than lack of communication. It was the Center that identified the
problem of duplicate grants, not EPA. Because EPA has no controls to prevent duplication from
occurring again, we have not changed Recommendation Number 5.

OFFICE OF ENFORCEMENT AND COMPLIANCE ASSURANCE RESPONSE (OECA)

The OEJ PO said there was never communication with the CBPO regarding an overlap between
the two grants.

The OECA PO’s responsibilities and employee performance agreements already include
recommendations related to effective grants management.

OIG EVALUATION

Although the OEJ PO may not have personally had discussions with the CBPO, the former
Director of OEJ acknowledged she had discussed the duplicate work plans with the CBPO project
officer.

We agree that effective grants management must be included as part of the PO’s responsibilities
and reflected in the employee’s performance agreements. Moreover, EPA should hold the POs
accountable for not effectively managing the grants.

During the exit conference, the OEJ PO said the Center submitted raw data for the race and
income components. However, she did not expect a final report because the Center had spent all
of the grant funds. It is unclear whether the Center intends to perform any more work related to
the raw data that was submitted to OEJ. The OEJ PO needs to monitor any additional work
performed by the Center.




                                                   9
                                                                    Report No. E3CEN8-03-0011-9300006
GRANTS ADMINISTRATION DIVISION (GAD) RESPONSE

GAD disagreed with implementing Recommendation Number 5 because we found only one
instance of duplication. GAD said that it reviewed 4,000 awards from the past two years
comparing Headquarters and regional awards. The review focused on identifying grants to the
same recipients within the same year, and then compared the project descriptions. GAD found no
other instance where duplication appears to be a problem.

OIG EVALUATION

We believe that GAD’s analysis of the 4,000 awards was not thorough enough to identify
duplicate awards. Project descriptions are a general characterization of the award. We believe
comparing work plans would achieve definitive results. Moreover, EPA has no control between
the regions and Headquarters to prevent duplication from recurring. Thus, Recommendation 5
remains unchanged.

CENTER RESPONSE

The Center cited several reasons for not having an adequate financial management system such as
time constraints, inexperience in documenting a large federal grant, and the vagueness of OMB
Circular A-122 requirements.

The Center contends that because it completed the scope of work included in the grants, it should
not be required to repay both grants completely. For example, the Center asked that positive
consideration be given to certain reasonable costs in the grant such as the salaries of the author
and the primary research assistant. On November 20, 1998, the Center provided additional
documentation in an attempt to support personnel costs. The support consisted of calendars
indicating when the Center employees worked on the EPA grants.

OIG EVALUATION

An inadequate financial management system does not relieve the Center of its responsibility.
Regarding the Center’s additional documentation to support personnel costs, the calendar pages
are not adequate alternative documentation to the personnel activity reports required by OMB
Circular A-122. The calendar sheets were blank for about half the days that the Center had
charged time to the grants. Also, for those calendar days which did reference the grant, there was
no detail of hours charged to the grant. Therefore, our position regarding the allowable costs
remains unchanged.




                                                10
                                                                 Report No. E3CEN8-03-0011-9300006
                                                                                          EXHIBIT A

               ANALYSIS OF ALLOWABILITY OF EXPENDITURES
           FOR THE PERIOD SEPTEMBER 1, 1995 TO NOVEMBER 1, 1996
                    UNDER EPA AGREEMENT EQ-993391-01
        AWARDED TO CENTER FOR ENVIRONMENT, COMMERCE & ENERGY


                                    AUDITOR'S OPINION

                                                            Costs Questioned
Costs                  Costs
Category               Incurred      Accepted        Ineligible          Unsupported Note

Personnel              $ 74,789      $      0        $            0         $74,789      1

Consultants              46,868             0             46,868                  0      2

Misc.                    12,680           807             10,698             1,175       3,4

In-Kind                   7,0001            0                 0              7,000       5

Unknown2                  5,663             0                  0             5,663       5

Total                  $147,000      $    807            $57,566           $88,627

Federal
Share 95%              $140,0001     $    767            $54,688           $84,545

Payments
To Date                              $140,000

Balance
Due EPA                              $139,233




        1
       EPA award officials rounded this number on the award
agreement.
        2
            The Center’s records did not indicate the category of costs.

                                                11
                                                                      Report No. E3CEN8-03-0011-9300006
Note 1:     Personnel costs amounting to $74,789 were unsupported because the Center did
            not maintain documented payrolls supported by personnel activity reports as
            required by OMB Circular A-122. The personnel activity reports must be based
            on an after-the-fact determination of the actual activity of each employee. The
            Center, which provided no support, other than some canceled checks, paid
            employees based on budgeted amounts. Budget estimates do not qualify as
            support for personnel charges.

Response:   EPA and the Center did not respond to this Note.

Note 2:     We considered the $46,868, paid to 15 consultants, ineligible because there were
            no consulting agreements as required by OMB Circular A-122. Without the
            required consulting agreements, the Center had no support indicating what
            consulting services were provided. The Circular provides that to determine the
            allowability of costs, some of the relevant factors are:

            •      Adequacy of the contractual agreement for the service (e.g., description of
                   the service, estimate of time required, the rate of compensation, and
                   termination provisions).

            •      The nature and scope of the services rendered in relation to the service
                   required.

            •      The qualifications of the individual rendering the service and the customary
                   fees charged.

            In addition, the Center did not procure consulting services in accordance with 40
            CFR 30.45, which requires grantees to use and document in the procurement files,
            some form of cost or price analysis for each procurement. Price analysis may be
            accomplished by the comparison of price quotations submitted, market prices, and
            similar indicia. Cost analysis is the review and evaluation of each element of cost
            to determine reasonableness, allocability and allowability. When procuring the
            consultants, the Center did not consider cost or perform a price analysis. Without
            a cost or price analysis, EPA has no assurance that the consulting expenditures
            were reasonable and allowable.

Response:   EPA and the Center did not respond to this Note.

Note 3:     We considered $10,698 paid to various vendors for miscellaneous expenditures
            (computer, health benefits, supplies, etc.) ineligible because they did not procure
            them in accordance with 40 CFR 30.45. The Center provided no support to
            indicate that a cost or price analysis was done as required.


                                             12
                                                               Report No. E3CEN8-03-0011-9300006
            Moreover, $4,255 of the $10,698 in miscellaneous expenditures were also
            unsupported. The Center did not provide receipts as required by 40 CFR 30.21 or
            maintain a financial management system that included an accurate, current, and
            complete accounting of all financial transactions for the grant, with supporting
            documents showing the application of all expenditures.

Response:   EPA and the Center did not respond to this Note.

Note 4:     We considered $1,175 in travel expenditures unsupported because the Center did
            not maintain documentation such as travel reports as required by 40 CFR 30.21.

Response:   EPA and the Center did not respond to this Note.

Note 5:     We considered $12,663 ($7,000 In-Kind and $5,663 Unknown) unsupported
            because the Center did not maintain documentation such as invoices, canceled
            checks, travel reports, and time sheets required by 40 CFR 30.21. Without the
            required support, we could not determine what they expended the $12,663 for.

Response:   EPA and the Center did not respond to this Note.




                                           13
                                                               Report No. E3CEN8-03-0011-9300006
                                                                                          EXHIBIT B

              ANALYSIS OF ALLOWABILITY OF EXPENDITURES
              FOR THE PERIOD APRIL 24, 1995 TO APRIL 23, 1997
                   UNDER EPA AGREEMENT EQ-824225-01
        AWARDED TO CENTER FOR ENVIRONMENT, COMMERCE & ENERGY


                                    AUDITOR'S OPINION

                                                           Costs Questioned
Costs                  Costs
Category               Incurred      Accepted        Ineligible          Unsupported           Note

Personnel               $ 3,125       $      0               $0               $ 3,125           1

In-Kind                   2,0003             0                    0             2,000           2

Unknown4                 26,875              0                    0            26,875           2

Total                   $32,000       $      0               $0               $32,000

Federal
Share 94%               $30,0003      $      0               $0               $30,000

Payments                               $29,986
To Date

Balance                                $29,986
Due EPA




        3
       EPA award officials rounded this number on the award
agreement.
        4
            The Center’s records did not indicate the category of costs.

                                                14
                                                                      Report No. E3CEN8-03-0011-9300006
Note 1:     Personnel costs of $3,125 were considered unsupported because the Center did
            not maintain documented payrolls in accordance with OMB Circular A-122. (See
            Exhibit A, Note 1)

Response:   EPA and the Center did not respond to this Note.

Note 2:     We considered $28,875 ($2,000 In-Kind and $26,875 Unknown) unsupported
            because the Center did not maintain documentation such as invoices, canceled
            checks, travel reports, and time sheets. 40 CFR 30.21 requires this
            documentation. Without the required support, we could not determine what they
            expended the $28,875 for.

Response:   EPA and the Center did not respond to this Note.




                                           15
                                                               Report No. E3CEN8-03-0011-9300006
       APPENDIX 1

RESPONSES TO DRAFT REPORT




           16
                      Report No. E3CEN8-03-0011-9300006
Region 3 Administrator Response




              17
                            Report No. E3CEN8-03-0011-9300006
SUBJECT:       Comments on the Draft Audit Report for the Center for
               Environment, Commerce and Energy
               Report No. E3CEN8-03-0011
               Grant Nos. EQ993391-01 EQ824225-01

FROM:          W. Michael McCabe /S
               Regional Administrator (3RA00)

TO:            Elissa R. Karpf
               Deputy Assistant Inspector General
                for External Audits (2421)

       In response to the draft audit report and recommendations, we offer the following
comments. Each of the responsible EPA offices has provided comments on the report
recommendations. In addition, the grantee as well as the responsible EPA offices submitted
comments on the report, itself, which are summarized below with a copy of each original response
attached.

Recommendations

        We recommend the Regional Administrator, Region III and the Assistant Administrator
for the Office of Enforcement and Compliance Assurance :

        1) Require the program offices to develop an assistance management plan that
identifies project officer (PO) planned oversight activity, estimated PO monitoring time
and other funds (e.g., travel) required, prior to approval of awards.

             -The response from the Office of Enforcement and Compliance Assurance
        (OECA) was submitted by the PO for Grant EQ824225-01.

                The response agrees that "POs (should) more closely monitor a recipient's
        performance." It also indicates that "the recommendations made on pages
        9- 10 of the draft report are already included as part of each OECA PO's
        responsibilities and are included as a part of the employee's performance agreement.

                              Customer Service Hotline: 1-800-438-2474




        S
            As signed by W. Michael McCabe on November 12, 1998.
                                              2

              -The response from Region III, Office of Policy and Management (OP&M) was
       submitted by the responsible Grants Management Specialist.

               The response concurs with the recommendation. However, it "(disagrees) with
       the requirements that the assistance management plans be developed prior to the award
       unless there is some immediate benefit in doing so."

              -The response from the Chesapeake Bay Program Office (CBPO) was submitted
       by the Deputy Director, CBPO.

               They do not concur with the recommendation. "It is well beyond the resources
       available for grants management given that individuals may manage numerous grants in
       addition to other work requirements."

              -The response from the Grants Management Division (GAD) was submitted by the
       Director, GAD.

              There were no comments on this recommendation.

       2) Hold POs and approval officials accountable for grant work plans specificity and
deliverables to administer the grant effectively and monitor grantee performance.

               -The OECA response, as noted above, states that the recommendations are already
       part of each OECA PO's responsibilities.

              -The Region III, OP&M response concurs with the recommendation.

              -The CBPO response concurs with the recommendation.

              -The GAD response had no comment on this recommendation.

     3) Require POs to manage grants properly in accordance with EPA's Assistance
Administration Manual.

             -As noted above, OECA believes that the recommendations are already a part of
       each OECA PO's responsibilities.

              -The Region III, OP&M response concurs with the recommendation.

              -The CBPO concurs with the recommendation.

              -The GAD response had no comment on this recommendation.
                                              3

       We recommend the Assistant Administrator for the OECA:

       4) Instruct the Office of Environmental Justice (OEJ) PO to monitor the completion
of the Center's work.

             -As noted above, the OECA believes that the recommendation is already a part of
       each OECA PO's responsibilities.

              -The Region III, OP&M response concurs with the recommendation.

              -The CBPO response concurs with the recommendation.

              -The GAD response had no comment on this recommendation.

      We recommend the Regional Administrator, Region III and the Director, Grants
Administration Division:

       5) Obtain written assurance that the Center's accounting, procurement and
timekeeping systems meet the requirements of OMB Circular A-122 before awarding
additional funds to the Center.

             -The OECA believes that the recommendation is already a part of each OECA
       PO’s responsibilities.

               -The Region III, OP&M response concurs with the recommendation . "However
       by signing SF-424B, Assurances-Non-Construction Programs, the applicant is already
       attesting to their ability to meet the financial accounting requirements."

              -The CBPO response concurs with comment- "Doesn't the grantee effectively do
       this when signing the Assistance Agreement? "

              -The GAD response had no comment on this recommendation.

        6) Include language in grant applications and agreements whereby the grantee
certifies that it has no other EPA-funded awards that include the same scope of work.

              -The OECA believes that the recommendation is already a part of each OECA
       PO's responsibilities.

               -The Region III, OP&M response does not concur with the recommendation. The
       legality of establishing such a certification is questionable.
                                                  4

               -The CBPO concurs with comment. “This is the most important
       recommendation-it places the responsibility clearly and efficiently with the grantee where
       all funding would come together at one grant. A single-program PO does not have the
       tools available to anticipate this problem and address it routinely.”

               -The GAD believes “this recommendation is not warranted by the finding of a
       single instance of this type of duplication identified in this report. We reviewed about
       4,000 awards from the past two years, comparing EPA Headquarters' grants to Regional
       ones. We found no other instance where such duplication appears to have been a
       problem. Based on our review, requiring all recipients to make this additional assertion
       appears unnecessary. The requirement would add a new paperwork burden which will
       require OMB’s approval. The effort to obtain that approval is also unnecessary.”

     In addition to the responses directed to the report recommendations, some submittals
commented on the body of the report, in some detail. Copies of all responses are attached. A
summary of each detailed response follows.

      Respondent-The grantee, The Center for Environment, Commerce and
Energy (CECE).

              The grantee states the following:

               EPA HQ awarded a $15,000 grant on April 10,1995 and $15,000 on May
       10, 1996. The CBPO-PO (Program Officer) requested the Office of Environmental
       Justice (OEJ) proposal from the grantee to use as the grant proposal for the Region III
       grant. The grantee believed that the Region III was an add-on to the OEJ grant.

       Duplicate Work Plans for Two Different Grants

              The April 10, 1995 OEJ grant amount was $15,000 for a one year period. An
       amendment was approved on May 10, 1996 for an additional $15,000. The Region III
       grant was approved on August 29, 1995.

               The Center (grantee) states that the CBPO-PO was well aware of the OEJ grant.
       If other personnel in the CBPO or Region III in Philadelphia or Annapolis were unaware
       of then OEJ grant, then it is because the CBPO-PO did not inform them. The Center
       President and the CBPO-PO had lengthy discussions about the OEJ grant before the
       Center signed the Region III grant.

       EPA Did Not Effectively Monitor the Grants

               The Center had its best outreach year in its history during the Region III grant
       period in 1995 and 1996. Examples are found in the attached response.

               The Center complained to the CBPO Director about the multi-month delays in
       reimbursements to the Center. During the spring of 1996, the CBPO-PO would not
       release funds until the Center agreed to her demands to reprogram $10,000 to a festival.
                                               5

      Other delays by the CBPO-PO are discussed in the Center's attached response. The
      CBPO-PO stated that, if the grant was not reprogrammed, she would not approve the final
      grant payments.

              The CBPO-PO never informed the Center that its performance was inadequate
      until approximately, May 1996. In fact, in a letter dated December 4, 1995 (attached) she
      complimented us on our prospects for completing a good report.

      Status of the Grantee's Work

            The ten month delay in issuing the report was because of the unwarranted nine
      month delay in making the final payments. Thus, the ten month delay was caused by the
      CBPO-PO.

              A report cannot provide public outreach. We proceeded to speak at civic
      association meetings, environmental group meetings and generally distributed the report
      all over Washington, D.C.

              The OIG sent the OEJ Director a copy of the commentary of the report and not
      the charts which included all of the race and income information. The OIG representatives
      said that they did not need the charts.

              The audit report statement that the Center was in the process of drafting another
      report that included the race and income components that would satisfy the OEJ’s
      expectations is incorrect. The Center did not draft a report, after the fact. The Unfair
      Share II and Unfair Share III reports were completed at about the same time.

      Auditor's Opinion

             The Center does not dispute the conclusions of the financial audit. The Center did
      not maintain documented payroll records supported by activity reports as required by
      OMB Circular A-122.

               The Center's August 28, 1998 response stated that they would not attempt to
      compile "after-the-fact " documentation to support budget expenditures. However, in a
      September 25, 1998 letter, the Center indicated that it will be submitting documentation
      (letter attached).

     Respondent-Jon Capacasa, Deputy Director, Chesapeake Bay Program Office
(CBPO)

      Why EPA Awarded Two Identical Grants to the Same Grantee

            We request that the audit report include a statement that the Chesapeake Bay
      Program Office (CBPO) was administering grant funds from the Office of Enforcement
      and Compliance Assurance (OECA), not CBPO funds. Funding was provided under
      OECA's "Partners in Protection Program."
                                          6

        It is clearly the ultimate obligation of a federal grantee to ensure a potential
problem is corrected with, apparently, duplicate work plans and awards before they accept
the assistance agreement or expend the funds.

       We request a statement be included in the report that EPA has no data base or
systems in place to routinely detect situations where grantees apply for the same project to
multiple programs, nationally.

        The draft report statement that EPA approved a work plan that required the
grantee to meet "only one interim deliverable that was near the end of the project period"
is incorrect. The time frame included in the approved scope of work stated that data
would be collected over a nine month period and a separate three month period would be
used for the integration and analysis of the information collected. There was also
a grant condition for the delivery of quarterly reports to the Agency.

Other Comments On the Facts

       As correctly stated on page 7 of the report under Duplicate Work Plans for Two
Different Grants, the CBPO-PO for EQ99339-01 did not know the Center (grantee) had
received an identical grant from OEJ five months earlier.

       The grantee had the prime and ultimate responsibility to ensure there wasn't
duplicate payment for the same tasks and to initiate a request for an amendment to the
grant.

       The draft report states that in an October 1995 letter, the President of the Center
suggests that he produce two separate reports, one for each program office. The CBPO-
PO never received such a letter. The OEJ PO has also indicated that they have no record
of such a letter.

        Insofar as a final document/deliverable was produced by the grantee for the CBPO
managed funds, the conditions of the work plan for a final report were met. The items
in the scope of work that did not meet the CBPO-PO's expectation was the provision for
public participation. This is based on the fact that the Center agreed to provide financial
support for an environmental "fair" in Anacostia Park in September 1996, but the check
that was provided for support was returned for insufficient funds.

Use of the Term "Misuse" of EPA Funds

       We are requesting a correction to the report language which refers to this as a
“misuse” of EPA funds. The dictionary definition of misuse is a " wrong or improper
use; misapplication."

       All of the funds here were used for eligible work activities and a deliverable was
obtained which met the letter of the CBPO administered grant award and work plan.
While one might argue that this was a less than fully effective use of the funds, it was not,
technically, a misuse or misapplication of funds.
                                          7

Other Comments

        The draft report correctly states that the work plan clearly did not satisfy CBPO's
intended results and that the CBPO's PO said the Center was to focus its efforts on
informing the District's communities about the types and amounts of pollution in their
neighborhoods. None of the information provided in the quarterly reports or first-hand
knowledge of the CBPO PO indicated that the Center was engaged in any public
participation/outreach activities related to this project.

       Regarding the inclusion of race and income data in the final report, the CBPO
PO did not instruct the grantee to withhold this information.

        Regarding the withholding of payments, the Assistance Agreement stipulates that
the recipient shall request reimbursement of eligible costs on a quarterly basis. The
CBPO-PO felt that it was reasonable to attempt to withhold payment based on this
condition, as well as the condition that a draft "final" report had not been delivered until
after the project period had ended.

Respondent-Linda Smith, Project Officer on EPA Grant No. EQ824225-01

         We do not believe that the work performed under the two projects was identical
nor do we believe that the $30,000 awarded by OEJ was a misuse of EPA funds. We do
agree that EPA should revise how awards are made to eliminate potential duplication of
effort in the future and that POs more closely monitor a recipient's performance. During
the period of performance of this grant there was no communication between the OEJ PO
and the CBPO PO.

       OEJ was the first EPA office to award a $30,000 grant to the Center for
Environment, Commerce and Energy.

        Even though the initial work plan reflected a much larger scope of work than could
be addressed by the $30,000, OEJ did not request a change in the scope of work. In
hindsight, OEJ should have required a revised scope of work since this seems to be where
the charge of "duplicate" work effort is originating. The grantee provided the required
data to OEJ and has committed to furnishing copies of the printed report at such time as it
is available. OEJ disagrees that the $30,000 must be repaid to EPA. The grantee should
be required to submit a statement as to how the $30,000 was distributed.

        Given that there is no requirement for verifying an application's uniqueness, it is
possible for two or more awards to the same applicant occur. It appears that this second
grant for $140,000 which was awarded by Region III on August 29, 1995 was based on
the same statement of work that the applicant has used for the OEJ award. The only
solution to avoid similar problems in the future is for EPA to require verification by a PO
that the applicant has not received any other EPA grants for similar work. OEJ takes
issue with the audit report stating that "OEJ did not monitor the grantee's performance."
Mr. McDonald (President, CECE) came by the office quite regularly to discuss the status
of his report.
                                               8

               As stated in the audit report, the grantee sent a letter to OEJ which was dated
       October 1995, which requested a modification of the title of the anticipated report from
       "Our Fair Share-Part II" to "Our Fair Share-Part III." When OEJ questioned the grantee,
       he explained that the Region had awarded him a grant to conduct mostly outreach and
       education. At no time during the life of either grant was there any communication
       between the OEJ PO or the CBPO PO. It never dawned on us that there was any concern
       of overlap between the two grants by either the grantee or EPA.

                The recommendation made on pages 9-10 of the draft audit report are already
       included as a part of each OECA PO's responsibilities and are included as a
       part of the employee's performance agreement. The issue in the audit involves some lax
       PO management of the project as well as a more fundamental problem that the       Agency
       has in that two projects were awarded without a cross-check for duplicate project awards.
       The Agency, as a whole, may want to consider adding to its management review process,
       under FMFIA. The Grants Administration Division ought to consider this need during its
       management reviews.

      If you have any questions, please have your staff contact Robert Picollo at (215) 814-5405
or Thomas Gallagher at (215) 814-5398.

Attachments

cc:    Carl Jannetti (3AI00)
       Steven Herman (2201A) (w/o attachment)
       Gary Katz     (3903R)     “
       Linda Smith   (2201A)     “
       Scott McMoran (3903R)     “
       Jon Capacasa (3CB00)      “
Region 3 Chesapeake Bay Program Office Response
(Provided as an Attachment to Region 3's Response)




                       26
                                      Report No. E3CEN8-03-0011-9300006
SUBJECT:        Comments on the Draft Report of EPA Grants to the
                Center for Environment, Commerce and Energy
                Grant Numbers EQ993391-01 and EQ824225-01
                Report Number E3CEN8-03-0011

FROM:           Jon M. Capacasa, Deputy Director /S
                Chesapeake Bay Program Office (3CB00)

TO:             Robert G. Reed, Jr., Chief
                Grants and Audit Management Branch (3PM70)


         According to the draft report, the purpose of the audit was to determine: 1) Why EPA awarded two
identical grants to the same grantee; 2) Whether this was a misuse of EPA funds and 3) Whether
the costs claimed under the two grants were allowable, allocable, and reasonable.

1) Why EPA awarded two identical grants to the same grantee

        Important Factual Corrections and Other Comments:

        Source of Funds - We request first that the audit report include a statement that "the Chesapeake
Bay Program Office was administering grants funds from the Office of Enforcement and Compliance
Assistance (OECA), not Chesapeake Bay Program funds. Funding was provided under OECA's Partners
in Protection Program.

        Obligation of the Grantee - it is clearly the ultimate obligation of a federal grantee to ensure a
potential problem is corrected with potentially duplicative grants and workplans before they accept an
Assistance Agreement or expend federal funds. This is where the audit should place clear and final
responsibility. If the grantee did not get timely resolution of this issue from the EPA Project Officers
involved, he should have deferred signing of the Agreement or deferred expenditures under the grant until
the matter was resolved.

         EPA Tools to Detect Such Occurrences - we request that the report make note of the fact that
EPA does not maintain a national data base or system which would routinely detect situations where
grantees apply for the same project to multiple programs nationally. This is a systems issue and not
something that can be averted by Project Officers managing single program grants. The audit could be of
greater benefit to the Agency by making some recommendations along these lines to address this situation
nationally, rather than focusing primary attention on Project Officer duties.


                               Customer Service Hotline: 1-800-438-2474


        S
            As Signed by Jon M. Capacasa on October 13, 1998
                                                      2


         Lack of Interim Deliverables - The draft report states that EPA approved a workplan that
required the grantee to meet “only one interim deliverable that was near the end of the project period.”
This is incorrect and requires correction. The time frame included in the approved scope of work
stated that data would be collected over nine month period, and a separate three-month period would
be used for the integration and analysis of the information collected. There was also a grant condition
for the delivery of quarterly progress reports to the Agency. Quarterly progress reports are interim
deliverables. It was as a result of the information supplied in the quarterly reports that the CBPO
project officer questioned whether the grantee was on track in collecting the necessary data and
satisfying the public participation element of the approved scope of work. These quarterly reports
coupled with the submission of inferior, draft work products caused the Project Officer to initiate a
series of meetings with the grantee to clarify the requirements of the workplan, and authorize the
withholding of funds and the final payment on the grant for a considerable period of time. This needs
to be stated in the report. The Grants Section of EPA Region 3 would not support further retention of
funds beyond a certain point because the workplan was broad and would not clearly justify the
retention.

         Other Comments on the Facts - As correctly stated on page 7 under the section entitled
"Duplicate Work Plans for Two Different Grants", the CBPO project officer for EQ993391-01 did not
know the Center had received an identical grant from the Office of Environmental Justice (OEJ) five
months earlier. Prior to May, 1995, the CBPO project officer worked in EPA Headquarters Office of
Water and had no knowledge of the Center or the activities of the OEJ. Once the second grant award for
$140,000 had been made, the President of the Center informed the CBPO project officer that they
had received funding from OEJ to do follow-up work on the 1994 report, "Our Unfair Share." The CBPO
project officer attempted to contact OEJ to determine: 1) whether the workplans were the same and 2) if
they were, whether OEJ would amend their grant to include the additional funds. A copy of the workplan
submitted to the CBPO was faxed to OEJ, however CBPO did not receive the OEJ workplan in return
for review. OEJ informed the CBPO Project Officer that since the $140,000 was the larger award, they
would not amend their grant.

         As stated above, the grantee had the prime and ultimate responsibility to ensure there wasn't
duplicate payment for the same tasks and to initiate a request for an amendment to the grants.
Alternatively, he should have deferred endorsement of the Assistance Agreement or expenditure of funds
until the matter was resolved.

          The draft audit report further states that in an October 1995 letter, the President of the Center
suggests that he produce two separate reports, one for each program office. The CBPO project officer
never received such a letter. The OEJ project officer has also indicated that they have no record of such
a letter. The President of the Center did offer verbally that two separate reports would be produced: the
report for the CBPO would include the survey of types and amounts of pollution in the District of
Columbia and a map as indicated in the workplan and the report for OEJ would include information on
"toxic behavior” such as violence, and types of food and beverages consumed.

         Insofar as a final document/deliverable was produced by the grantee for the CBPO managed funds
and met the letter of the workplan, the conditions of the grant for a final report were met. The item in the
scope of work that did not meet the CBPO project officer's expectation was the provision for public
participation. This is based on the fact that the Center agreed to provide financial support for an
environmental fair in Anacostia Park in September, 1996 but the check that was provided for
support was returned for insufficient funds.
                                                      3



2) Use of the term "misuse" of EPA funds

        Removal of the Term Misuse of Funds - We are requesting a correction to the report
language which refers to this as a "misuse" of EPA funds. The dictionary definition of misuse is a "wrong
or improper use; misapplication."

        All of the funds here were used for eligible work activities and a deliverable was obtained which
met the letter of the Chesapeake Bay Program Office administered grant award and work plan. While one
might argue that this was a less than a fully effective use of the funds, it was not technically a misuse or
misapplication of funds. Simple corrective steps during the course of the project could have prevented
any issue here.

         While we referred this issue for audit review because we were concerned about the potential
duplication of grant awards, it would quite acceptable for a large work task to be supported by more than
one cost-share partner or grant program, so long as efforts were made to segregate the work tasks to the
various sources of funding. The grantee failed to do this and the EPA Project Officers did not have the
tools available to them to know in advance that a potential overlap existed. All the grantee would need to
do is submit a grant amendment request along with workplan changes to segregate the sources of funding
with the tasks in the workplan.

         Other Comments - While the workplan for this grant was admittedly broad in scope, one must
consider that this was for the purpose of producing a sequel report to a highly successful first report
(Unfair Share Part 1). This report was an early precedent in the Environmental Justice movement
nationally. Simple reference to this report in the workplan set a benchmark for performance under this
award. We expected that a similar product would be delivered this second time based in part on the
established track record and national credibility of the grantee.

         Page 8 paragraph 2 of the draft report states that the workplan clearly did not satisfy CBPO's
intended results and that the CBPO's project officer said that the Center was to focus its efforts on
informing the District's communities about the types and amounts of pollution in their neighborhoods. The
draft report states correctly that the grant's scope of work emphasized identifying types and amounts of
pollution by categories of facilities but the scope of work also says that the project will provide tours of
selected sites, educational materials, workshops, and training under a public participation element. None of
the information provided in the quarterly reports or first hand knowledge of the CBPO project officer
indicated that the Center was engaged in any public participation/outreach activities related to this project.
That is the reason that the CBPO project officer offered to allow the grantee to satisfy this public
participation element by supporting and attending the September, 1996 environmental fair in Anacostia
Park.

        Further, a copy of the "Partners in Protection" Program Anacostia Enforcement Assistance Project
was given to the grantee as guidance before the grant was awarded. This document describes where
the concept and funding for the project originated and as stated, the immediate goal was to provide the
means for the Anacostia population to better inform themselves about their environment and the legal
framework for governmental functions.
                                                     4

         As stated earlier, the project officer at CBPO had no prior knowledge of OEJ or OEJ activities, nor
any prior knowledge of the Center or the Center's President and assumed that verbal agreements that
didn't require reallocation of finding were acceptable. The President of the Center verbally agreed to
conduct and expand the public participation aspect of the project. Also, as stated previously, the Center
did not formally (in writing) notify CBPO of a duplicate workplan and a copy of the OEJ workplan was
never provided to the CBPO Project Officer while the grant was active.

         Regarding the inclusion of race and income data in the final report, the CBPO project officer did
not instruct the grantee to withhold this information. In fact, in the 1994 "Our Unfair Share"     report,
racial distribution information is reproduced from the 1992 "Indices: A Statistical Index to District of
Columbia Services". The 1998 report contains the exact same demographic data but includes median
household income instead of average housing cost.

         Regarding withholding of payments, the Assistance Agreement stipulates that the recipient shall
request reimbursement of eligible costs on a quarterly basis. The CBPO felt that it was reasonable to
attempt to withhold payment based on this condition as well as the condition that a draft final report had
not been delivered until after the project period had ended. Withholdings of payment were authorized by
the Project Officer and supported by the Region for a considerable time which was ultimately the tool
which produced a final project report meeting the minimum requirements of the workplan.

3) Whether the costs claimed under these two grants were allowable, allocable, and reasonable

We defer to the grantees response to the request for better cost documentation.

Proposed Recommendations

1) Require the program offices to develop an assistance management plan that identifies project officer
planned oversight activity , estimated PO monitoring time and other funds required, prior to approval of
awards.

          We do not concur with this recommendation. It is well beyond the resources available for grants
          management given that individuals may manage numerous grants in addition to other work
          requirements.

2) Hold POs and approval officials accountable for grant work plan specificity and deliverables to
administer the grant effectively and monitor grantee performance.

Concur.

3) Require the POs to manage grants properly in accordance with EPA's Assistance Administration
Manual.

Concur.

4) Instruct the OEJ PO to monitor the completion of the Center's work.

Concur.
                                                     5

5) Obtain written assurance that the Center's accounting, procurement, and timekeeping systems meet the
requirements of OMB Circular A-122 before awarding additional Federal funds to the Center.

Concur with comment -- Doesn't the grantee effectively do this when signing the Assistance Agreement?

6) Include language in grant applications and agreements whereby the grantee certifies that it has no other
EPA-funded awards that include the same scope of work.

Concur with comment. This is the most important recommendation - it places the responsibility       clearly
and efficiently with the grantee where all funding would come together at one point.            A single-
program Project Officer does not have the tools available to anticipate this problem and address it
routinely.




cc:     William Matuszeski
        Beverly Baker
        Robert Picollo
        Carl A. Jannetti, Divisional Inspector General for Audit (3AI00)
Region 3 Grants and Audit Management Branch Response
  (Provided as an Attachment to Region 3's Response)




                        32
                                      Report No. E3CEN8-03-0011-9300006
SUBJECT:      Comments on the Draft OIG Report for the Center for
              Environment, Commerce & Energy, Report # E3CEN8-
              03-0011

FROM:                Mary G. Zielinski
              Grants Management Specialist (3PM70)

TO:           Francis R. Snock
              Grants Management Officer (3PM70)

        The following are my comments concerning the findings and recommendations contained
in subject report:

Findings

        On page seven, the report describes the situation which occurred regarding the award of
two EPA grants with identical requirement. Specifically, the report states that "EPA approved a
work plan that required the grantee to meet only one interim deliverable" and that this lack of
deliverables precluded EPA from effectively monitoring the grantee's performance. This is
inaccurate. The conditions in the grant award document required the grantee to produce
quarterly progress reports. These reports are an effective means of monitoring performance.

Recommendations

T       Concur.              However, I do not agree with the requirement that the assistance
                             management plans be developed prior to award unless there is some
                             immediate benefit to doing so.

T       Concur.

3.      Concur.

4.      Concur.

5.      Concur.              However by signing SF-424B, Assurances - Non-Construction
                             Programs, the applicant is already attesting to their ability to meet
                             the financial accounting requirements. Is the OIG envisioning
                             something additional?

                          Customer Service Hotline: 1-800-438-2474
T   Do not concur.   First of all, I'm not sure of the legality of establishing such a
                     certification. Furthermore, the situation that occurred appears to
                     have happened because of miscommunication between EPA offices.
                     Had there been better coordination, the chances of this situation
                     occurring would have been minimal.
     Office of Environmental Justice Response
(Provided as an Attachment to Region 3's Response)




                       35
                                      Report No. E3CEN8-03-0011-9300006
                                         October 5, 1998

MEMORANDUM

SUBJECT: Response to Draft Audit Report on EPA Grants to Center for Environment,
     Commerce & Energy Grant Number EQ824225-01

FROM:          Linda K. Smith /signed/   Linda K.              Smith
               Project Officer on EPA Grant EQ824225

TO:            Carl A. Jannetti
               Divisional Inspector for Audit
               Mid-Atlantic Division
               EPA Region 3

        Thank you for the opportunity to respond to your August 28, 1998 Draft Audit Report
concerning two EPA grants awarded to the Center for Environment, Commerce & Energy using
$170,000 of the Office of Enforcement and Compliance Assurance (OECA) funding. While
both grants were awarded with funds from OECA, only the first grant, EQ824225, was managed
by OECA. The second larger grant, EQ993391, was managed by Region 3's Chesapeake Bay
Program with funds reprogrammed to Region 3 for this purpose. The following information
addresses the audit findings concerning the first grant, EQ824225, managed out of OECA's Office
of Environmental Justice (OEJ). It does not attempt to answer any issues raised in the audit
report concerning the Region 3 project.

        We do not believe that the work performed under the two projects was identical nor do
we believe that the $30,000 awarded by OEJ was a misuse of EPA funds. We do agree that EPA
should revise how awards are made to eliminate potential duplication of effort in the future and
that project officers more closely monitor a recipient's performance. It appears that much of
what is described in this report is due to a lack of communication between the project officers on
the two grants and an unawareness on the part of the recipient of the requirements for awards
greater than $100,000. During the period of performance of this grant, there was no
communication between the OEJ project officer and the CBPO project officer.

        It is important to note that OEJ was the first EPA office to award a small $30,000 grant to
the Center for Environment, Commerce, & Energy to ADD race and income demographics to an
existing study published in June 1994 as "Our Unfair Share: A Survey of Pollution Sources in Our
Nation's Capital." This grant was awarded April 10, 1995 and incrementally funded in the
amount of $15,000 due to a shortage of funds in fiscal year 1995. The balance of $15,000 was to
be added after October 1, 1995, and was actually awarded May 10, 1996. Even though the initial
work plan reflected a much larger scope of work than could be addressed by this $30,000 OEJ did
not require a change in the scope of work but only requested that the budget be revised to reflect
the $30,000 it was providing for the race and income demographics. In hindsight, OEJ should
have required a revised scope of work as well since this seems to be where the charge of
"duplicate" work effort is originating. The report which was to include the race and
demographics was to be called "Our Unfair Share -- Part II." There was no intent for the grantee
to do anything beyond reissuing the report to include the race and demographics-there was never
any request or intention for the grantee to do extensive outreach and education to the affected DC
communities. The grantee provided the data to OEJ and has committed to furnishing copies of
the printed report-at such time as it is available. OEJ disagrees that the $30,000 must be repaid
to EPA. The grantee should be required to submit a statement as to how the $30,000 was
distributed.

        Given that grants can be awarded in eleven different locations and given that there is no
requirement for verifying an application's uniqueness, it is possible for two or more awards to the
same applicant to occur. Since an applicant has no guarantee that he or she is going to receive an
award it is highly likely that an applicant could use "similar" application packages at different
locations. This appears to be what happened in this instance. If Region 3's Chesapeake Bay
Program Office (CBPO) expected something that was not stated in the work plan, it would be the
project officer's responsibility to request the applicant to submit a revision prior to the award. It
appears that this second grant for $140,000 which was awarded by Region 3 on August 29,
1995, three months after OEJ’s initial award, was based on the same statement of work that the
applicant had used for the OEJ award. The only solution to avoid similar problems in the future is
for EPA to require verification by a project officer that the applicant has not received any other
EPA grant for similar work.

        OEJ takes issue with the audit report stating that "OEJ did not monitor the grantee’s
performance." The grantee was local and Mr. MacDonald came by the office quite regularly to
discuss the status of his report. Since the requirements of the project were quite simple and
direct (e.g., to add race and income demographics to the existing report), the OEJ Director and
project officer reviewed early versions of the purported document. At one such meeting, the OEJ
Director reviewed tabular demographic data broken down by DC wards and stressed to the
grantee that the information needed to be added graphically to the report. Likewise, the OEJ
Director and project officer did see a preliminary very rough draft of the report about June 1996
and found that the date was included and that the report would be acceptable. At this time, a
printed report was still expected although OEJ was aware that the grantee was having difficulty
arranging for the layout and manuscript preparation needed to make the report manuscript
"printable." OEJ had no additional funds with which to print the report and was waiting for the
grantee to find another means. OEJ had no way of anticipating that the "final report" it had
reviewed would later be greatly modified to remove the race and demographics data. Based on
the original review of the manuscript and the availability of the data, if needed, the OEJ project
officer closed out the grant.
        As stated in the audit report, the grantee sent a letter to OEJ which was dated October
1995 which requested a modification of the title of the anticipated report from "Our Fair Share --
Part II" to "Our Fair Share -- Part III." When OEJ questioned the grantee why that was
necessary, he explained that the Region had awarded him a grant to conduct mostly outreach and
education with the affected DC communities on environmental justice, community-right-to-know
and much broader issues under the same name. At no time during the life of either grant was
there any communication between the OEJ project officer or the CBPO project officer. It never
dawned on us that there was any concern of overlap between the two grants by either the grantee
or EPA.

        The recommendations made on pages 9-10 of the draft audit report are already included
as a part of each OECA project officer's responsibilities and are included as a part of the
employee's performance agreements. In this specific case the project management was at the OEJ
Office Director level rather than more appropriately at the project officer level but this does not
eliminate the fact that the project officer is still responsible for ensuring that the $30,000 is
accounted for by receiving a final product. This project officer and the grantee, have had
numerous discussions concerning the need for closure of the project. Since a final printed report
is not forthcoming, the race and demographic data were requested electronically and the project
officer is investigating how to make the information available through the Internet. The issue in
this audit involves some lax project officer management of the project as well as a more
fundamental problem that the agency has in that two projects were awarded without a
cross-check for duplicate project awards. This is a much bigger issue and one that the Agency as
a whole may want to consider adding to its management review process under FMFIA. The
Grants Administration Division ought to consider this need during its management reviews.

       Thank you again for the opportunity to respond to this draft report. If you have any
questions concerning this response, please contact me at 202-564-2602, Fax: 202-501-1162.
     Grants Administration Division Response
(Provided as an Attachment to Region 3's Response)




                       39
                                      Report No. E3CEN8-03-0011-9300006
MEMORANDUM

SUBJECT:      Center for Environment, Commerce & Energy Audit, Number E3CEN8-03-0011

FROM:         Gary M. Katz. Director
              Grants Administration Division

TO:           W. Michael McCabe, Regional Administrator
              Region 3 (3RA00)

I am providing my comments on the Center for Environment, Commerce & Energy, Audit
Number E3CEN8-03-0011.

My primary concern has to do with Recommendation 6 on page 10. You recommend that we
include language in grant applications and agreements whereby grantees certify that it has no
other EPA-funded awards that include the same scope of work.

This recommendation is not warranted by the finding of a single instance of this type duplication
identified in this report. Moreover, we reviewed about 4,000 awards from the past two years,
comparing Headquarters grants to Regional ones. We found no other instance where such
duplication appears to have been a problem. Based on our review, requiring all recipients to make
this additional assertion appears unnecessary. The requirement would add a new paperwork
burden which will require OMB's approval. The effort to obtain that approval is also unnecessary.

If you have questions, please contact Scott McMoran on 202-564-5376.


G:\OGD\SHARE\GAD\GOB-B\AUDITS\envcent\drftcom.wpd
Center for Environment, Commerce & Energy Response
 (Provided as an Attachment to Region 3's Response)




                        41
                                      Report No. E3CEN8-03-0011-9300006
                                                           September 22, 1998




Mr. W. Michael McCabe
Regional Administrator, Region 3
1650 Arch Street
Philadelphia, PA 19103-2029

       Re:     Report No. E3CEN8-03-011
               Audit of Center for Environment, Commerce & Energy
               EPA Grants EQ993391-01 and EQ824225-01

Dear Mr. McCabe:

       Enclosed is a copy of our response to the draft audit report referenced above. We
understand that the audit report prepared by the United States Environmental Protection Agency's
Office of Inspector General (OIG) is a draft and is subject to revision.

       We are providing comments within 30 days of the date of the OIG draft audit        report
(dated August 28, 1998). As requested, we are also enclosing a copy of our        response to
Mr. Carl A. Jannetti, Divisional Inspector General for Audit, Mid-Atlantic Division. If you
have any questions, please feel free to contact me.

                                                           Sincerely,

                                                           /S
                                                           Norris McDonald
                                                           President

cc:    Carl A. Jannetti




       S
             As signed by Norris McDonald on September 22, 1998.
Response to: OIG Draft Report of EPA Grants to the
             Center for Environment, Commerce & Energy
             Grant Numbers EQ993391-01 and EQ824225-01
             Report Number E3CEN8-03-0011

From:         Center for Environment, Commerce and Energy

Comments: (Section-by- Section)

August 28, 1998 Memorandum

The first paragraph on page one (1) states that Region 3's Chesapeake Bay Program
Office (CBPO) requested EPA's Office of the Inspector General (OIG) to perform an
audit of two EPA grants awarded to the Center for Environment, Commerce and Energy
(the Center). The memo also states that the grants had identical requirements and work    plans.
The paragraph concludes by stating that the purpose of the audit was to determine     why EPA
awarded two identical grants to the same grantee and whether this was a misuse      of EPA
funds.

Response 1: The Center received the notification of a $15,000 grant from
EPA's Office of Environmental Justice on April 10, 1995. We were
informed at that time that we would receive an additional $15,000 after the
beginning of the new fiscal year. The additional $15,000 was awarded on
May 10, 1996. The Center was informed by the CBPO Program Officer
(CBPO-PO) that the Center had been awarded a grant for $140,000 in
August, 1995. The Center President immediately asked the CBPO-PO if the
$140,000 was an add-on or amendment to the OEJ grant of $15,000.

The CBPO-PO was aware of the OEJ grant at the beginning of the Region 3
grant. [Note: For the purposes of our response(s), we are using the phrase
"Region 3 grant" although funding for the grant was provided by the EPA
Headquarters Office of Enforcement and Compliance Assurance and the
grant was managed by Region 3 in Philadelphia, Pennsylvania and its
Chesapeake Bay Program Office in Annapolis, Maryland.] The CBPO-PO
faxed a copy of the Region 3 grant notification (See Attachment 1:
Commitment Notice) to the Center before the Center submitted the
proposal. The CBPO-PO requested that we send over a copy of the OEJ
proposal with a modified budget. The Center submitted the same proposal
format, but with a modified budget to reflect the expanded requirements of
the larger grant. The Center President notified the OEJ that the larger grant
had been awarded and inquired about the linkage of the grants. In


                                               1
September 1995, the CBPO-PO informed the Center President that we were
receiving two grants for the same project. The CBPO-PO made disparaging
remarks about the competence of the EPA officials involved in the grant(s)
and noted that some EPA officials were going to "go to jail" and that EPA's
Inspector General would definitely get involved in the grant(s). It was after
these comments that the Center President discussed modifying the work
plan with the OEJ to include race and income in the OEJ grant and just
types and amounts of pollution in the Region 3 grant. The Center President
sent a letter requesting the change in title and scope of work to the OEJ
office and to the CBPO-PO on October 15, 1995. The CBPO-PO
questioned why EPA would give the Center such a large grant. The
CBPO-PO stated in October, 1995, at the beginning of the grant period, that
she would make sure that the Center would never get another EPA grant.

        The first paragraph on page 2 under the section entitled Results-In-Brief states
that because EPA awarded the same grantee two grants with identical work plans despite
expecting different work products , that this represents a misuse of EPA funds.

Response 2: The Center, as the grantee, requested a modification of the
work plans at the beginning of the grant period. The Center also proceeded
to implement two different, although similar, work plans. As mentioned in
Response 1, the Center was confused about the EPA grant procedures
related to the amendment process. Once we understood that we were in a
position to receive two separate grants, we submitted the request to modify
the work plans. The Center should not be penalized for EPA's lack of
responsiveness to its requests to modify the grants. We are also concerned
that assigning responsibility to the Center for the duplication of work plans
and then describing it as a misuse of EPA funds represents a damaging
characterization of the Center. Moreover, the Center submitted the same
proposal (with the modified budget) at the request of the CBPO-PO. Again,
the Center received the grant Commitment Notice from the CBPO-PO
before we submitted a proposal. The Commitment Notice was dated June
23, 1995. The Commitment Notice also stated that the responsible EPA
Office was the Office of Enforcement and Compliance Assurance--the same
office with authority over the Office of Environmental Justice. The
Commitment Notice contained no reference to Region 3 nor the CBPO.
The Center had no way of knowing that we were committing to two
separate grants for essentially the same program until we heard the
comments from the CBPO-PO and after we realized that the Region 3 grant


                                               2
was given a different grant number. The Center was unaware that it was
receiving a separate grant instead of an amendment. And when we became
aware of the duplication, we immediately made a request for a modification
and proceeded to implement two separate reports.

The Purpose section states that the CBPO requested the OIG audit to determine: 1) why
EPA awarded two identical grants to the same grantee, 2) whether this was a misuse of
EPA funds, and 3) whether the costs claimed under these two grants were allowable,    allocable,
and reasonable.

Response 3: The CBPO-PO requested that we send the OEJ proposal with a
modified budget. As noted in Response 2, we requested a modification of
work plans. The CBPO-PO also showed us a marked-up draft of the project
description which included the EPA recommendation to commission a
follow-up report to "Our Unfair Share: A Survey of Pollution in the DC and
Maryland portions of the watershed, the follow-up shall identify resources
to aid in their solution (See Attachment 2). Again, the CBPO-PO was aware
of the $15,000 OEJ grant. The Center sent the CBPO-PO a copy of the OEJ
grant and we were instructed to modify the budget. The CBPO-PO
continually stated that the marked-up draft of the Partners in Protection
Program was part of our work plan. It was never formally included in the
proposal or the grant agreement. Moreover, the marked-up document stated
that the Center should first identify the problems and then identify the
resources to aid in their solution. The CBPO-PO insisted that we implement
outreach solutions before we identified the problems. Of course, this was
probably a function of the differences in our proposal and scope of work
and the goals contained in the marked-up Partners in Protection Program
draft. We proceeded with an aggressive outreach program while the
research was being conducted during the nine month research and outreach
period. This included the first and only time that African Americans
conducted environmental tours on the Anacostia and Potomac Rivers. We
recruited a boat club, a tree preservation group and a community
organization to participate in the outreach program. The Center initiated
outreach efforts, and the CBPO-PO reacted to initiatives on an ad hoc basis.
The specific outreach components were never agreed upon. And no matter
how much outreach we designed and implemented, it was never enough for
the CBPO-PO.



                                               3
It appears to us that the authorization for the grant was completed before
our proposal was submitted. The CBPO-PO requested a copy of the OEJ
proposal. This led us to believe that the larger grant amount was to be an
add-on. [Note: We now know that EPA would not amend a small grant with
such a larger amount.] We thought that EPA decided to authorize $140,000
instead of the additional $15,000 (OEJ) that we were expecting at the time
the Region 3 grant was authorized. We subsequently received authorization
for the additional $15,000 portion of the OEJ grant seven months after the
Region 3 grant. Because OEJ operates under the Office of Enforcement and
Compliance Assurance (OECA) and the funding for the Region 3 grant
came from OECA, we thought that the larger grant was a significant add-on
to provide significant funding to hire staff and consultants, to conduct an
extensive research and outreach project, and to provide a solid foundation
for the Center to become self sustaining.

Again, from our perspective, we acted appropriately in recommending a
separation in the work plans in the grants and in implementing the grants.

Concerning whether the costs claimed under the two grants were allowable,
allocable, and reasonable, the Center did not implement, or did not
implement adequate, personnel activity reports, time sheets, invoices, and
cost or price analyses. Because there was a short period of time between
our notification of the grant(s) and the beginning of the grant period, we did
not use an adequate financial management system. Although we reviewed
OMB Circular A-122, we were inexperienced in, and unfamiliar with,
comprehensive federal contracting requirements. As a result, we relied
upon canceled checks and a certified public accountant report of our
expenditures based on budgeted amounts for our financial documentation.
We are now familiar with the financial management system and
procurement procedures required for federal government grants. Our
finished reports and the outreach described in our quarterly reports is
evidence of a significant amount of time, effort and expense on the part of
the Center in fulfilling the deliverables in our proposal(s).

Although virtually all costs under both grants received a negative
determination regarding eligibility, allocability and allowability due to our
inadequate accounting system, at a very minimum, we hope that some




                                        4
positive consideration can be given to certain reasonable costs in the
grant(s), such as the salaries of the author of the report(s) and the primary
research assistant. Again, the reports were produced and the outreach was
accomplished under the terms of the grant(s). We hope that EPA's Grants
Division will take this into consideration as they address the OIG
recommendation to repay both grants.

The Background section states that The National Wildlife Federation and the National
Association of Neighborhoods funded the first DC pollution report.

Response 4: Actually, they cosponsored the report with the Center's
membership arm, the African American Environmentalist Association.
Funding was provided by a private foundation. Each group's in-kind
contributions far exceeded the modest level of funding provided by the
private foundation. The project also took two years to complete when the
original projection was for one year. And we would like to believe that this
report stimulated much of the current activity, including EPA's formation of
its Partners in Protection Program, that is occurring in the District of
Columbia. The "Our Unfair Share II and III" reports fulfilled the
limitations of the first report by providing types and amounts of pollution
by site and race and income data by site. We are currently constrained in
promoting the reports, however, because of the cloud over the project(s) and
the CBPO-PO's proclivity for making unsubstantiated, untrue, and (we
assume) unauthorized allegations about the Center to other organizations,
EPA divisions, and the media.

The second paragraph of the Background section states that EPA Headquarters awarded a
$30,000 grant to the Center on April 10, 1995.

Response 5: The April 10, 1995 grant was for $15,000 (See Attachment 3).

The third paragraph of the Background section states that the Center used the same work
plan to obtain the CBPO grant that it had submitted to OEJ for the first grant. It goes on
to say that the CBPO-PO anticipated a final product different from the OEJ's and that the
Center should focus on informing communities about types and amounts of pollution in
neighborhoods. It goes on to describe the goals in the scratched up document in our
Attachment 1, which were never included in the grant proposal or the grant.

Response 6: As previously stated, the CBPO-PO requested the OEJ
proposal from the Center to use as the grant proposal for the Region 3 grant.



                                                5
The Center President and the CBPO-PO had lengthy discussions about the
OEJ grant. The CBPO-PO stated that EPA officials did not know what they
were doing because Region 3 had already commissioned a pollution study
with a company named Versar. The CBPO-PO stated at this time that this
would make three grants for the same project. The CBPO-PO proceeded to
make disparaging remarks about the competence of the EPA coordinator for
the Versar contract, EPA Region 3 officials and EPA Headquarters officials.
The CBPO-PO was aware of the three initiatives, expressed concern about
it, but waited until the end of the project(s) to recommend an OIG audit.
The CBPO-PO should not have signed-off on the grant authorization
considering her knowledge of the OEJ grant and the concerns about
duplication. The CBPO-PO should not have signed-off on a grant
notification before she had a proposal. The CBPO-PO should not have
requested a copy of the OEJ grant proposal with a modified budget if she
was concerned about program duplication. Again, the Center thought that
the Region 3 grant was an add-on to the OEJ grant, particularly since
funding for both grants was being provided by OECA. The CBPO Partners
in Protection project description clearly calls for a follow-up report to "Our
Unfair Share." This decision was made independent of the Center, without
our knowledge or input. Again, the CBPO-PO knew that we already had a
grant for $15,000 to produce a follow-up report to "Our Unfair Share" from
the OEJ.

The CBPO-PO instructed us to proceed with outreach to educate
communities about types and amounts of pollution during the research
phase of the project (the first nine months). We consistently responded that
we could not do this because we had not compiled the information on types
and amounts of pollution. We did, however, proceed to implement outreach
programs (such as toxics river tours) to educate people about pollution and
pollution sites in Washington, D.C. The Center President consistently
requested an amendment to the grant to include specific deliverables to
satisfy the goals of the scratched-up Partners in Protection draft document.
It is possible that this might have occurred if the government had not
"shut-down" in November, 1995 until February, 1996. Unfortunately, just
before the government closure, the CBPO-PO sent our payment invoice to
the Center instead of to the appropriate EPA office. Thus, although the
Center had staffed-up and procured equipment and other consulting
commitments, its October, 1995 reimbursement was delayed until March,




                                       6
1996 by what we believe was an intentional action to impede our work.
During the "shut-down," the CBPO-PO stated that the Center would not be
paid for the months that the government was closed. We proceeded with
our research and outreach, to the extent practicable, without any assurances
about when, or if, the grant or the grant period would proceed.

The Duplicate Work Plans for Two Different Grants section on page seven (7), first
paragraph, states that the OEJ grant was for $30,000 with a two-year project period.

Response 7: The April 10, 1995 OEJ grant amount was $15,000 for a one
year period. An amendment was approved on May 10, 1996 for an
additional $15,000 (See Attachment 4). The Region 3 grant was approved
on August 29, 1995.

This section's second paragraph also states that CBPO personnel said they did not know
the Center received an identical grant from OEJ five months earlier.

Response 8: The CBPO-PO was well aware of the OEJ grant. If other
personnel in the CBPO or Region 3 in Philadelphia and Annapolis were
unaware of the OEJ grant, then it is because the CBPO-PO did not inform
them. The Center President and the CBPO-PO had lengthy discussions
about the OEJ grant before the Center signed the Region 3 grant. Again, the
CBPO-PO discussed the implications of the pending Region 3 grant, the
OEJ grant, and the Region 3 grant to Versar for pollution studies of the
District. Again, the CBPO-PO stated that when the OIG finds out about
this, someone at EPA is going to jail. And the CBPO-PO stated that it was
not going to be her. After repeatedly hearing this controversial scenario, the
Center President discussed the situation with the OEJ Director and drafted a
letter to modify the grant(s) in October, 1995. Again, maybe the
government shutdown one month later obscured the need to modify the
grant(s).

The last paragraph in the EPA Did Not Effectively Monitor the Grants section (page 9),
states that EPA determined that the Center was performing almost no outreach.

Response 9: The Center had its best outreach year in its history during the
Region 3 grant period in 1995 and 1996. In addition to numerous
workshops, speaking engagements, a radio interview and toxics river tour
for the interviewer, a television appearance in prime time that was repeated
approximate 10 times in prime time; two particular outreach efforts



                                               7
illustrate the advanced level of outreach the Center achieved: 1) we helped
launch and implement the D.C. Fresh Program, in cooperation with the
District government, to provide environmental jobs to summer youth and 2)
we operated river tour programs (the only environmental river tours ever
conducted by African Americans in the history of Washington, D.C.). To
characterize the outreach efforts documented in our quarterly reports and
recognized by District officials (See Attachments 5 and 6) as "almost no
outreach" is totally inaccurate. This level of outreach was also achieved
without it being specified in the scope of work.

The same section concludes that CBPO had no basis to withhold funds.

Response 10:       In addition to the delays in the Center's reimbursements
due to the government shutdown, the Center complained to the CBPO
Director about the additional unwarranted, multimonth delays in
reimbursements created by the CBPO-PO (See Attachments 7 and 8):
1) the CBPO-PO sent an invoice back to the Center instead of grants in
Philadelphia for processing, 2) a multimonth delay during the spring of
1996 when the CBPO-PO would not release funds until we agreed to her
demands to reprogram $10,000 to a festival (we eventually reprogrammed
the grant for $5,000 so that we could receive our final payments), 3) a delay
in reimbursement for not reporting items during the third quarter that were
required to be performed during the fourth quarter, and 4) the unwarranted
nine month delay at the end of the grant period. The Center believes that
these delays in reimbursements were a calculated effort to undermine the
successful implementation of the grant.

Again, we were forced to agree to send a letter to reprogram $10,000 to a
festival by the CBPO-PO. She stated that if we did not reprogram the grant,
she would not approve the final grant payments. The CBPO even drafted
the language for the letter and faxed it to us for the Center President to copy
(See Attachment 9). I drafted the letter just as she wrote it but reduced the
amount to $5,000 because I did not want to spend the grant money this
way (See Attachments 10 and 11). After we wrote a check to the Park
Service to pay for the event, the CBPO-PO decided that she would cancel
the remaining payments because she said that the final draft of the report
was inadequate. Because of this, the check to the Park Service was
returned due to insufficient funds. The final payments included funding to
support this event and for printing the report. The CPBO-PO also tried to



                                              8
coerce us into using our production crew to produce the documents for the
festival. The CBPO-PO appeared to be trying to impress the DC
Environmental Regulation Administration employee who was coordinating the
festival. The CBPO-PO told me, when she was taking a grants management
training session, that it was illegal for program officers to force grantees to
subcontract with other entities. The Center surely did not want to provide
funding to the U.S. Park Service or the D.C. Environmental Regulation
Administration. Both of the agencies are multimillion dollar operations.
Furthermore, although our procurement system was inadequate at the time,
we would like to know how one would support the eligibility of such a
redirection of the grant.

The delay of the final payments and the cancellation of an expected EPA
Water Management Division grant forced the Center to lay-off staff, (and
Center staff lost their health insurance--our research assistant was eight
months pregnant, the administrative assistant suffers from diabetes, and the
Center President is a chronic, acute asthmatic), close the Washington office,
and reestablish a home-based operation similar to our circumstances prior to
the Region 3 and OEJ grants. The Center President does take responsibility
for the fate of the organization and should not have relaxed fundraising
activities after he thought the organization had secured the water grant (See
Attachment 12).

The second paragraph in this section (page 8) states that the CBPO-PO told the OIG that
early in the project period, she realized the grantee was not performing adequately.

Response 11:       The CBPO-PO never informed the Center that its
performance was inadequate until approximately May, 1996. In fact, in a
letter dated December 4, 1995 (See Attachment 13), she complimented us
on our prospects for completing a good report. The Center did not realize
the true nature and depth of the CBPO-PO's negativity towards us until
approximately May, 1996. The CBPO-PO engaged in a campaign of
aggressive negativity towards us after the release of the Versar draft report
in May, 1996. We did not realize how deeply the CBPO-PO despised the
Center President until he was hospitalized with a severe asthma attack and
she used the opportunity to low-rate him before Region 3 staff concerning
another pending grant from EPA's Drinking Water Branch. The Center
believes that the "Lead Survey and Remediation in D.C. Day Care Drinking
Water" proposal was killed by the negative comments to Region 3 program



                                               9
and grants staff (See Attachment 14). The proposal was for $230,540.
EPA offered the grant in February, 1996 and was ultimately killed in July,
1996, after being delayed for about four months. Evidently, the CBPO-PO
proceeded to work to kill this grant right after the Center President informed
her that EPA offered the grant. The Center considered this additional
project to be a great outreach tool to supplement the current Region 3 grant.
Because the Center thought the grant was definite, we relaxed our
fundraising and assembled a very good team of scientists to execute the
grant. Our team of scientists was used by the firm that eventually
performed this grant under a subcontract with Cadmus. It was after these
events, and the unwarranted delay in the final grant payments, that the
Center, through an Advisory Committee member requested another program
officer for the grant (See Attachment 15). The request was denied.

In the Status of Grantee's Work section on page 9, it states that the grantee issued a report
ten months after the due date.

Response 12: The ten month delay occurred because of the
unwarranted nine month delay in making the final payment(s). The Center
essentially had a final product but was very nervous about completing
payments for production and printing costs when the CBPO had taken the
liberty to tell our production consultant that the project was not going to
receive any more funding. The Center President had to reassure the Red
Letter Group that they would be paid for their services, even if we had to
pay it out of our organization general support funding. Of course, the
production consultants had stopped working on the project in order to
pursue other business and we had no choice but to comply with their
schedule. However, when the final payment(s) were authorized, due to
communications with the CBPO Director, the payments were made
immediately to the printing and production company. Thus, the ten month
delay was not caused by the Center, but was caused by the CBPO-PO.

The same section notes that the CBPO-PO stated that the report did not provide public
outreach (page 9).

Response 13:       A report cannot provide public outreach. We proceeded
to speak at civic association meetings, environmental group meetings, and
generally distributed the report all over Washington, D.C. We have




                                                10
continued to distribute the report and we will continue to distribute reports.
We get requests for the reports every week.

This section states that the former OEJ Director said the report was inadequate because it
did not include the race and income components.

Response 14:      The OIG sent the OEJ Director a copy of the
commentary of the report and not the charts which include all of the race
and income information. The commentary of the report also included
significant amounts of information about race and income. The Center did
not provide a copy of the charts when OIG conducted its audit visit at their
request. The OIG representatives said they did not need the charts. The
audit representatives said they accepted that we had completed writing the
third report.

This section notes that, as of April 1998, the Center was in the process of drafting another report
that included the race and income components that would satisfy OEJ’s             expectations.

Response 15:       This is incorrect. The Center completed the "Unfair
Share III” report at about the same time as the "Unfair Share II" report. The
research on these reports was conducted simultaneously. The Center did
not draft a report after the fact to attempt to show a separation of the
grants. The dichotomy was made by our organization at the beginning of
the grant period, when we shared various drafts of the Unfair III report with
the OEJ during the grant period. At one point, the Center President
described how he discovered errors in the Landview II CD ROM that were
almost included in the "Unfair Share III" report. The Center even contacted
EPA and the U.S. Department of Commerce and they agreed to look into the
errors and make the appropriate changes if needed.

Response 16 (to Auditors Opinion): The Center does not dispute the
conclusions of the financial audit. Again, the Center did not maintain
documented payrolls supported by activity reports as required by OMB
Circular A- 122. The Center also determined that it would not attempt to
compile after-the-fact payroll activity reports and other support
documentation. In addition to the logistical constraints to reconstructing
this information, we concluded that it would not be possible to adequately
reconstruct the information. And we also did not want to create an




                                               11
appearance of impropriety by an effort to regenerate after-the-fact reports,
invoices and other support documentation, no matter how accurate and
factual they might be. As the Center noted to the OIG during the audit visit,
the Center considered the canceled checks, the CPA report, and adherence
to the budgeted amounts as its financial management system. The Center's
lack of experience in documenting a large federal grant, and the vagueness
(to us) of the OMB Circular A-122 in describing the specific requirements for
administering a grant, led to a failure to adequately document the grant
expenditures. Moreover, the Center failed to implement consulting services
agreements for consulting services, price analyses for equipment purchases,
travel reports or time sheets. However, we completed the scope of work
included in the grants and we should not be required to completely repay
both grants. We have also taken the appropriate steps to thoroughly
familiarize ourselves with federal financial management requirements. We
are also extremely concerned that a repayment determination will lead to
our debarment and we will not be allowed to work with any federal
agencies. This would, however, fulfill the statement made by the
CBPO-PO.

                                 Conclusion

       We appreciate the efforts of EPA to provide us with sufficient
funding to implement aggressive research and outreach services in the
District of Columbia. It is unfortunate that the partnership was hampered in
achieving all of its goals. Moreover, although the Center established a
downtown Washington office with 3 full time staff and several part-time
consultants, thanks to the EPA grant, we are now in the position of possibly
having to repay a $140,000 grant, a $30,000 grant, and we lost a
$230,540 EPA water grant due to unsubstantiated comments by the CBPO-
PO. Although we believe that these deficits would negatively affect,
bankrupt or close any organization or business, we intend to continue to be
committed to working to improve environmental conditions whenever and
wherever we can. We also continue to believe that our organization and
EPA could be great partners. Although the CBPO-PO stated at the beginning
of our grant notification that she would assure that we would never get
another EPA grant; we hope that this will not happen. Finally, It is ironic
that our lack of experience in implementing an acceptable financial
management system would have probably created problems in a review of
the grant anyway.



                                     12
The many efforts by the CBPO-PO to undermine and sabotage us was
overkill. The CBPO-PO vendetta against the Center President is not only
tragic, but is also baffling in light of the good work that the CBP0-P0 has
apparently accomplished in other areas. In addition to our self-inflicted
mistakes, the CBPO-PO did succeed in significantly damaging us and our
aspirations to work closely with EPA to deliver environmental information
and services to the general public and African American communities.

Order of Attachments

1. Commitment Notice
2. Marked-up Partners-in-Protection document
3. OEJ Agreement ($15,000), April 10, 1995
4. OEJ Amendment ($15,000), May 10, 1996
5. Testimonial, DC Public Schools
6. Testimonial, DC Deparment of Employment Services
7. Complaint letter to CBPO Director
8. Complaint letter to CBPO Director
9. Letter drafted by CBPO Program Officer
10. CBPO-PO letter copied by Center President
11. CBPO-PO letter altered and copied by Center President
12. Lead Grant
13. Testimonial, CBPO Program Officer
14. Drinking Water Branch Memo
15. Request to replace CBPO Program Officer




                                             13
                                                                               September 25, 1998
Robert G. Reed
Chief
Grants and Audit Management Branch
U.S. Environmental Protection Agency
Region 3
1650 Arch Street
Philadelphia, Pennsylvania 191031-2029

              RE: Grant #s: EQ824225 and EQ993391

Dear Mr. Reed:

        This letter is to inform you that the Center for Environment, Commerce and
Energy intends to submit after-the-fact documentation to support budget item
expenditures incurred under U.S. Environmental Protection Agency Agreement Numbers
EQ824225 and EQ993391. This documentation is being generated during the month of
October 1998 for your consideration in our attempt to meet the requirements of OMB
Circular A-122: "Cost Principles for Nonprofit Organizations." We understand that this
documentation should have been produced during the grant period, but we were simply
unaware that if we did not follow the guidelines in the OMB Circular, we would have to     repay
each item ruled ineligible or unallowable in an audit. We sincerely hope that EPA     will
consider our inexperience in documenting federal grants and allow the expenditures supported by
our after-the-grant-period documentation.

       If you have questions, or need additional information, please feel free to contact    me.

                                                     Sincerely,

                                                     /S
                                                     Norris McDonald
                                                     President

cc:    Robert J. Picollo
       Carl A. Jannetti
       W. Michael McCabe




       S
           As signed by Norris McDonald September 25, 1998.
                                                                                December 14, 1998

Mr. W. Michael McCabe
Regional Administrator, Region 3
U.S. Environmental Protection Agency
1650 Arch Street
Philadelphia, PA 19103-2029

       Re:      Report No. E3CEN8-03-011
                Audit of Center for Environment, Commerce & Energy
                EPA Grants EQ993391-01 and EQ824225-01

Dear Mr. McCabe:

        Enclosed is a supplemental statement to the draft audit report referenced above.
Mr. Patrick J. Milligan and Mr. Mark Phillips, of the Office of the Inspector General,
recommended that I submit this statement to you in order for it to be included in the final record.
I am formally requesting the inclusion of this supplemental statement in my response to the audit
report. I have also submitted copies to them.

       If you have questions, please feel free to contact me.

                                                 Sincerely,

                                                 /S
                                                 Norris McDonald
                                                 President


cc:    Patrick J. Milligan
       Mark Phillips




       S
             As signed by Norris McDonald, on December 14, 1998.
Addendum to:

Response 11:

The CBPO-PO made one final attempt to sabotage the production of the report by calling the
president of Friends of the Earth to convince him to back out of cosponsoring the report. The
CBPO-PO did this after she knew that the report was being printed. The intent must have been to
create a conflict between the Center and FOE. If FOE had agreed, we would have been in the
position of having printed a report with their name on it that could not have been distributed. The
CBPO-PO tried to use the "Calculating a Fair Federal Pollution Payment" section in the report as
the basis for FOE's removing their cosponsorship. She knew that they did not support this
concept. We acknowledged their neutrality on this issue in the front of the report and put the
section in the back of the report. Fortunately, the Friends of the Earth president saw through the
scheme and maintained their cosponsorship and promotion of the report. Again, this action, along
with many other such actions, was an attempt to destroy a relationship between the African
American Environmentalist Association and the U.S. Environmental Protection Agency.
                             APPENDIX 2 - DISTRIBUTION

HEADQUARTERS

Office of Inspector General - Headquarters (2410)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Director, Office of Grants and Debarment (3901R)
Director, Grants Administration Division (3903R)
Comptroller (2731)
Agency Audit Follow up Official (2710)
Agency Audit Follow up Coordinator (2724)
Agency Liaison,
 Office of Enforcement and Compliance Assurance (2201A)
Audit Liaison, Office of Administration and Resources Management (3102)
Audit Liaison, Grants Administration Division (3903R)
Director, Office of Policy and Resources Management (3102)
Associate Administrator for Congressional and Intergovernmental Relations (1301)
Associate Administrator for Communications, Education, and Media Relations (1701)

REGIONAL OFFICE

Region 3 Administrator (3RA00)
Assistant Regional Administrator, Office of Policy and Management (3PM00)
Director, Chesapeake Bay Program Office (3CB00)
Director, Office of Communications and Government Relations (3CG00)
Chief, Grants & Audit Management Branch (3PM70)
Regional Library (3PM52)

OTHER

Center for Environment, Commerce & Energy
General Accounting Office




                                             59
                                                             Report No. E3CEN8-03-0011-9300006
